No. 19-368

IN THE

Oupretue Court of tbe Einiteb btateo
FORD MOTOR COMPANY,
Petitioner,
v.
MONTANA EIGHTH JUDICIAL DISTRICT COURT, et al.,
Respondents.

On Petition for a Writ of Certiorari
to the Supreme Court of Montana

REPLY BRIEF IN SUPPORT OF CERTIORARI

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains
2,848 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Executed on December 4, 2019.

Colin Casey Hogan
T--Wilson-Epes Print ng Co., Inc.

